                 Department of Veterans Affairs
                 Office of Inspector General


                   Office of Healthcare Inspections

Report No. 14-02065-230




   Combined Assessment Program 

           Review of the 

  Washington DC VA Medical Center 

          Washington, DC 





August 1, 2014

                       Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations
                    Telephone: 1-800-488-8244
                   E-Mail: vaoighotline@va.gov
         (Hotline Information: www.va.gov/oig/hotline)
                               CAP Review of the Washington DC VA Medical Center, Washington, DC



                                              Glossary
                 CAP            Combined Assessment Program
                 CLC            community living center
                 ED             emergency department
                 EHR            electronic health record
                 EOC            environment of care
                 facility       Washington DC VA Medical Center
                 FY             fiscal year
                 MEC            Medical Executive Committee
                 MH             mental health
                 MRI            magnetic resonance imaging
                 NA             not applicable
                 NM             not met
                 OIG            Office of Inspector General
                 PACU           post-anesthesia care unit
                 PRC            Peer Review Committee
                 QM             quality management
                 SDS            same day surgery
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                         CAP Review of the Washington DC VA Medical Center, Washington, DC



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives and Scope ................................................................................................              1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1


Reported Accomplishments......................................................................................                     2


Results and Recommendations ................................................................................                       3

  QM ..........................................................................................................................    3

  EOC ........................................................................................................................     7

  Medication Management.........................................................................................                  10

  Coordination of Care ...............................................................................................            11

  Acute Ischemic Stroke Care ...................................................................................                  12

  CLC Resident Independence and Dignity ...............................................................                           13

  MRI Safety ..............................................................................................................       15


Appendixes
  A. Facility Profile ....................................................................................................        17

  B. Strategic Analytics for Improvement and Learning ............................................                                18

  C. VISN Director Comments ..................................................................................                    21

  D. Facility Director Comments ...............................................................................                   22

  E. OIG Contact and Staff Acknowledgments .........................................................                              31

  F. Report Distribution .............................................................................................            32

  G. Endnotes ...........................................................................................................         33





VA OIG Office of Healthcare Inspections
                               CAP Review of the Washington DC VA Medical Center, Washington, DC



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings. We conducted the review the week of June 9, 2014.

Review Results:          The review covered seven activities.                  We made no
recommendations in the following two activities:

 Acute Ischemic Stroke Care

 Community Living Center Resident Independence and Dignity

The facility’s reported accomplishments were the Culinary Arts Program, which aims to
provide state of the art professional kitchen training to veterans, and the Veterans and
Community Health Sunday Magazine Radio Show, which provides round table
discussions on health care issues.

Recommendations: We made recommendations in the following five activities:
Quality Management: Ensure that sufficient experienced senior physicians are
members of the Peer Review Committee and that actions from peer reviews are
consistently completed and reported to the committee. Consistently report Focused
Professional Practice Evaluation results for newly hired licensed independent
practitioners to the Medical Executive Committee. Implement an observation bed
policy, and collect and analyze data related to observation bed use. Ensure Code Blue
Committee code reviews include screening for clinical issues prior to the resuscitation
event that may have contributed to the event. Require the Surgical Work Group to meet
monthly. Analyze electronic health record (EHR) quality data at least quarterly, and
ensure the review of EHR quality includes most services. Revise the quality control
policy for scanning to include the handling of external source documents. Ensure the
Transfusion Committee members from Medicine and Anesthesia Services consistently
attend meetings.

Environment of Care: Require that Environment of Care Committee and Executive
Committee of the Governing Body minutes reflect sufficient discussion of deficiencies,
corrective actions taken, and tracking of actions to closure. Ensure that public
restrooms are clean, that the surveillance monitoring system on the locked mental
health unit is on at all times, and that the electronic patient monitoring system on the
Community Living Center West unit is inspected and checks documented. Secure
medications in the emergency department, on the dialysis unit, on the post-anesthesia
care unit, and in the eye clinic.

Medication Management: Ensure the medication list provided to the patient/caregiver at
discharge is reconciled with the dosage and frequency ordered.




VA OIG Office of Healthcare Inspections                                                        i
                               CAP Review of the Washington DC VA Medical Center, Washington, DC


Coordination of Care:        Ensure progress notes in the EHR are individualized and
accurate.

Magnetic Resonance Imaging Safety: Conduct contrast reaction and fire emergency
drills in magnetic resonance imaging areas. Ensure that initial and secondary patient
safety screenings are completed and that resolution of identified patient
contraindications is documented in the EHR prior to the scan. Require that staff who
may need to enter the magnetic resonance imaging area are designated as
Level 1 ancillary staff and that all designated Level 1 and 2 staff receive annual
level-specific safety training. Ensure appropriate physical barriers are in place to restrict
access to Zones III and IV.

Comments
The Veterans Integrated Service Network and Facility Directors agreed with the
Combined Assessment Program review findings and recommendations and provided
acceptable improvement plans. (See Appendixes C and D, pages 21–30, for the full
text of the Directors’ comments.) We will follow up on the planned actions until they are
completed.




                                                         JOHN D. DAIGH, JR., M.D. 

                                                        Assistant Inspector General for 

                                                           Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                        ii
                               CAP Review of the Washington DC VA Medical Center, Washington, DC



                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	 Conduct recurring evaluations of selected health care facility operations, focusing
      on patient care quality and the EOC.

   	 Provide crime awareness briefings to increase employee understanding of the
      potential for program fraud and the requirement to refer suspected criminal
      activity to the OIG.

Scope
The scope of the CAP review is limited. Serious issues that come to our attention that
are outside the scope will be considered for further review separate from the CAP
process and may be referred accordingly.

For this review, we examined selected clinical and administrative activities to determine
whether facility performance met requirements related to patient care quality and the
EOC. In performing the review, we inspected selected areas, conversed with managers
and employees, and reviewed clinical and administrative records. The review covered
the following seven activities:

   	 QM

   	 EOC

   	 Medication Management

   	 Coordination of Care

   	 Acute Ischemic Stroke Care

   	 CLC Resident Independence and Dignity

   	 MRI Safety

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FY 2013 and FY 2014 through June 13, 2014,
and was done in accordance with OIG standard operating procedures for CAP reviews.
We also asked the facility to provide the status on the recommendations we made in our


VA OIG Office of Healthcare Inspections                                                       1
                               CAP Review of the Washington DC VA Medical Center, Washington, DC


previous CAP report (Combined Assessment Program Review of the Washington, DC,
VA Medical Center, Washington, DC, Report No.12-00709-211, July 6, 2012). We
made a repeat recommendation in EOC.

During this review, we presented crime awareness briefings for 369 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and
included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
189 responded. We shared summarized results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                         Reported Accomplishments

Community Resource and Referral Center Culinary Arts Program
The Community Resource and Referral Center links veterans and their families to
diverse community partners, resources, and programs aimed at ending homelessness
and promoting community reintegration and independence. One of these programs is
the facility’s Culinary Arts Program, a licensed training opportunity for veterans
interested in food preparation and handling. The program offers veterans access to a
state of the art professional kitchen in which to practice their culinary skills and is unique
to the facility.

Veterans and Community Health Sunday Magazine Radio Show
The facility has a Veterans and Community Health Sunday Magazine Radio Show,
which offers listeners a weekly ½ hour dedicated health talk show. The radio segment
is an opportunity to spotlight VA health care innovations, programs, and experiences. It
is also a way to highlight the diverse cultures represented within the veteran population
and facility staff.




VA OIG Office of Healthcare Inspections                                                       2
                                          CAP Review of the Washington DC VA Medical Center, Washington, DC



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility met selected requirements
within its QM program.a

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The areas marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

NM                     Areas Reviewed                                        Findings
       There was a senior-level committee/group
       responsible for QM/performance improvement
       that met regularly.
        There was evidence that outlier data was
          acted upon.
        There was evidence that QM, patient
          safety, and systems redesign were
          integrated.
 X     The protected peer review process met              Six months of PRC meeting minutes reviewed:
       selected requirements:                              Although PRC membership included staff
        The PRC was chaired by the Chief of Staff           physicians, it did not include the expected
          and included membership by applicable              experienced senior physicians, such as the
          service chiefs.                                    Chiefs of Primary Care and ED.
        Actions from individual peer reviews were         Of the eight actions expected to be
          completed and reported to the PRC.                 completed, seven were not reported to the
        The PRC submitted quarterly summary                 PRC.
          reports to the MEC.
        Unusual findings or patterns were
          discussed at the MEC.
 X     Focused Professional Practice Evaluations for      Twelve profiles reviewed:
       newly hired licensed independent practitioners      Results of five Focused Professional Practice
       were initiated and completed, and results            Evaluations were not reported to the MEC.
       were reported to the MEC.
 NA    Specific telemedicine services met selected
       requirements:
        Services were properly approved.
        Services were provided and/or received by
          appropriately privileged staff.
        Professional practice evaluation information
          was available for review.




VA OIG Office of Healthcare Inspections                                                                     3
                                          CAP Review of the Washington DC VA Medical Center, Washington, DC


NM               Areas Reviewed (continued)                                    Findings
 X     Observation bed use met selected                    The facility did not have an observation bed
       requirements:                                        policy.
        Local policy included necessary elements.         The facility did not gather observation bed
        Data regarding appropriateness of                  use data.
          observation bed usage was gathered.
        If conversions to acute admissions were
          consistently 30 percent or more,
          observation criteria and utilization were
          reassessed timely.
       Staff performed continuing stay reviews on at
       least 75 percent of patients in acute beds.
 X     The process to review resuscitation events         Twelve months of Code Blue Committee
       met selected requirements:                         meeting minutes reviewed:
        An interdisciplinary committee was                There was no evidence that code reviews
          responsible for reviewing episodes of care        included screening for clinical issues prior to
          where resuscitation was attempted.                code that may have contributed to the
        Resuscitation event reviews included               occurrence of the code.
          screening for clinical issues prior to events
          that may have contributed to the
          occurrence of the code.
        Data were collected that measured
          performance in responding to events.
 X     The surgical review process met selected            The Surgical Work Group only met 4 times
       requirements:                                        over the past 6 months.
        An interdisciplinary committee with
          appropriate leadership and clinical
          membership met monthly to review surgical
          processes and outcomes.
        Surgical deaths with identified problems or
          opportunities for improvement were
          reviewed.
        Additional data elements were routinely
          reviewed.
       Critical incidents reporting processes were
       appropriate.
 X     The process to review the quality of entries in    Twelve months of EHR Committee meeting
       the EHR met selected requirements:                 minutes reviewed:
        A committee was responsible to review             EHR quality data was not analyzed quarterly.
          EHR quality.                                     The review of EHR quality did not include
        Data were collected and analyzed at least          EHRs from Neurology, Outpatient, and
          quarterly.                                        Physical Medicine and Rehabilitation
        Reviews included data from most services           Services.
          and program areas.
 X     The policy for scanning non-VA care                 The scanning policy did not include a quality
       documents met selected requirements.                 control process for the handling of external
                                                            source documents.




VA OIG Office of Healthcare Inspections                                                                       4
                                          CAP Review of the Washington DC VA Medical Center, Washington, DC


NM              Areas Reviewed (continued)                                    Findings
 X     The process to review blood/transfusions           Four sets of Transfusion Committee meeting
       usage met selected requirements:                   minutes reviewed:
        A committee with appropriate clinical             Clinical representatives from Medicine and
          membership met at least quarterly to review       Anesthesia Services attended only two of four
          blood/transfusions usage.                         meetings.
        Additional data elements were routinely
          reviewed.
       Overall, if significant issues were identified,
       actions were taken and evaluated for
       effectiveness.
       Overall, senior managers were involved in
       performance improvement over the past
       12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
       The facility met any additional elements
       required by VHA or local policy.

Recommendations

1. We recommended that the Chief of Staff reconsider Peer Review Committee membership
to ensure that sufficient experienced senior physicians are regular members.

2. We recommended that processes be strengthened to ensure that actions from peer reviews
are consistently completed and reported to the Peer Review Committee.

3. We recommended that processes be strengthened to ensure that Focused Professional
Practice Evaluation results for newly hired licensed independent practitioners are consistently
reported to the Medical Executive Committee.

4. We recommended that a local observation bed policy be implemented and that data about
observation bed use be collected and analyzed.

5. We recommended that processes be strengthened to ensure that Code Blue Committee
code reviews include screening for clinical issues prior to the code that may have contributed to
the occurrence of the code.

6.   We recommended that the Surgical Work Group meet monthly.

7. We recommended that processes be strengthened to ensure that electronic health record
quality data is analyzed at least quarterly and that the review of electronic health record quality
includes most services.

8. We recommended that the quality control policy for scanning be revised to include the
handling of external source documents.




VA OIG Office of Healthcare Inspections                                                                  5
                                          CAP Review of the Washington DC VA Medical Center, Washington, DC


9. We recommended that processes be strengthened to ensure that the Transfusion
Committee members from Medicine and Anesthesia Services consistently attend meetings.




VA OIG Office of Healthcare Inspections                                                                  6
                                          CAP Review of the Washington DC VA Medical Center, Washington, DC


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether the facility
met selected requirements in SDS, the PACU, and the eye clinic.b

We inspected the locked MH, SDS, dialysis, medical intensive care, step down/progressive
care, and neurology units; the PACU; one inpatient surgery unit; and the CLC West unit. We
also inspected the ED and the women’s health and eye clinics. Additionally, we reviewed
relevant documents, conversed with key employees and managers, and reviewed 24 employee
training records (11 SDS, 8 PACU, and 5 eye clinic). The table below shows the areas
reviewed for this topic. The areas marked as NM did not meet applicable requirements and
needed improvement. Any items that did not apply to this facility are marked NA.

NM           Areas Reviewed for General EOC                                   Findings
 X     EOC Committee minutes reflected sufficient         Eight months of EOC and 5 months of Executive
       detail regarding identified deficiencies,          Committee of the Governing Body meeting
       corrective actions taken, and tracking of          minutes reviewed:
       corrective actions to closure.                      Minutes did not reflect sufficient discussion of
                                                            deficiencies, corrective actions taken, and
                                                            tracking of actions to closure.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       Fire safety requirements were met.                    
 X     Environmental safety requirements were met.         All six public restrooms inspected were in
                                                            need of cleaning.
                                                           Although the surveillance monitoring system
                                                            on the locked MH unit was functional, it was
                                                            turned off.
                                                          Five months of inspection documentation for the
                                                          electronic patient monitoring system on the CLC
                                                          West unit reviewed:
                                                           There was inconsistent documentation of
                                                             required inspections. This was a repeat
                                                             finding from the previous CAP review.
       Infection prevention requirements were met.
 X     Medication safety and security requirements         We found three unlocked and unattended
       were met.                                            supply/medication carts in the ED and on the
                                                            dialysis unit.




VA OIG Office of Healthcare Inspections                                                                     7
                                          CAP Review of the Washington DC VA Medical Center, Washington, DC


NM            Areas Reviewed for General EOC                                  Findings
                          (continued)
       Auditory privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
          Areas Reviewed for SDS and the PACU
       Designated SDS and PACU employees
       received blood borne pathogens training
       during the past 12 months.
 NA    Designated SDS employees received medical
       laser safety training with the frequency
       required by local policy.
       Fire safety requirements in SDS and on the
       PACU were met.
       Environmental safety requirements in SDS
       and on the PACU were met.
 NA    SDS medical laser safety requirements were
       met.
       Infection prevention requirements in SDS and
       on the PACU were met.
 X     Medication safety and security requirements         We found an unlocked and unattended
       in SDS and on the PACU were met.                     supply/medication cart on the PACU.
       Auditory privacy requirements in SDS and on
       the PACU were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for Eye Clinic
       Designated eye clinic employees received              
       laser safety training with the frequency
       required by local policy.
       Environmental safety requirements in the eye
       clinic were met.
       Infection prevention requirements in the eye
       clinic were met.
 X     Medication safety and security requirements         We found three unsecured medications on
       in the eye clinic were met.                          top of a treatment table in the eye clinic laser
                                                            room.
                                                           We found an unsecured supply/medication
                                                            cart in the eye clinic laser room.
       Laser safety requirements in the eye clinic
       were met.
       The facility complied with any additional             
       elements required by VHA, local policy, or
       other regulatory standards.




VA OIG Office of Healthcare Inspections                                                                        8
                                          CAP Review of the Washington DC VA Medical Center, Washington, DC


Recommendations

10. We recommended that processes be strengthened to ensure that Environment of Care
Committee and Executive Committee of the Governing Body minutes reflect sufficient
discussion of deficiencies, corrective actions taken, and tracking of actions to closure.

11. We recommended that processes be strengthened to ensure that public restrooms are
clean and that compliance be monitored.

12. We recommended that processes be strengthened to ensure that the surveillance
monitoring system on the locked mental health unit is on at all times and that compliance be
monitored.

13. We recommended that processes be strengthened to ensure that the electronic patient
monitoring system on the Community Living Center West unit is inspected and checks
documented and that compliance be monitored.

14. We recommended that processes be strengthened to ensure that all medications in the
emergency department, on the dialysis unit, on the post-anesthesia care unit, and in the eye
clinic are secured and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                  9
                                          CAP Review of the Washington DC VA Medical Center, Washington, DC


Medication Management
The purpose of this review was to determine whether the appropriate clinical oversight and
education were provided to patients discharged with orders for fluoroquinolone oral antibiotics.c

We reviewed relevant documents and conversed with key managers and employees.
Additionally, we reviewed the EHRs of 32 randomly selected inpatients discharged on 1 of
3 selected oral antibiotics. The table below shows the areas reviewed for this topic. The area
marked as NM did not meet applicable requirements and needed improvement. Any items that
did not apply to this facility are marked NA.

NM                      Areas Reviewed                                       Findings
       Clinicians conducted inpatient learning
       assessments within 24 hours of admission or
       earlier if required by local policy.
       If learning barriers were identified as part of
       the learning assessment, medication
       counseling was adjusted to accommodate the
       barrier(s).
       Patient renal function was considered in
       fluoroquinolone dosage and frequency.
       Providers completed discharge progress
       notes or discharge instructions, written
       instructions were provided to
       patients/caregivers, and EHR documentation
       reflected that the instructions were
       understood.
 X     Patients/caregivers were provided a written         Four EHRs (13 percent) did not reflect that
       medication list at discharge, and the                the medication list provided to the
       information was consistent with the dosage           patient/caregiver at discharge had been
       and frequency ordered.                               reconciled with the dosage and frequency
                                                            ordered.
       Patients/caregivers were offered medication
       counseling, and this was documented in
       patient EHRs.
       The facility established a process for
       patients/caregivers regarding whom to notify
       in the event of an adverse medication event.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

15. We recommended that processes be strengthened to ensure that the medication list
provided to the patient/caregiver at discharge is reconciled with the dosage and frequency
ordered and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                   10
                                          CAP Review of the Washington DC VA Medical Center, Washington, DC


Coordination of Care
The purpose of this review was to evaluate discharge planning for patients with selected
aftercare needs.d

We reviewed relevant documents and conversed with key employees. Additionally, we
reviewed the EHRs of 20 patients with specific diagnoses who were discharged from
July 1, 2012, through June 30, 2013. The table below shows the areas reviewed for this topic.
The area marked as NM did not meet applicable requirements and needed improvement. Any
items that did not apply to this facility are marked NA.

NM                      Areas Reviewed                                       Findings
       Patients’ post-discharge needs were
       identified, and discharge planning addressed
       the identified needs.
       Clinicians provided discharge instructions to
       patients and/or caregivers and validated their
       understanding.
       Patients received the ordered aftercare
       services and/or items within the
       ordered/expected timeframe.
       Patients’ and/or caregivers’ knowledge and
       learning abilities were assessed during the
       inpatient stay.
 X     The facility complied with any additional           Five EHRs contained contradictory
       elements required by VHA or local policy.            information about the patient in templated
                                                            progress notes that were not individualized.

Recommendation

16. We recommended that processes be strengthened to ensure that progress notes in the
electronic health record are individualized and accurate.




VA OIG Office of Healthcare Inspections                                                                    11
                                          CAP Review of the Washington DC VA Medical Center, Washington, DC


Acute Ischemic Stroke Care
The purpose of this review was to determine whether the facility complied with selected
requirements for the assessment and treatment of patients who had an acute ischemic stroke.e

We reviewed relevant documents, the EHRs of 44 randomly selected patients who experienced
stroke symptoms, and 15 employee training records, and we conversed with key employees.
We also conducted onsite inspections of the ED, one critical care unit, and one acute inpatient
unit. The table below shows the areas reviewed for this topic. Any items that did not apply to
this facility are marked NA. The facility generally met requirements. We made no
recommendations.

NM                      Areas Reviewed                                       Findings
       The facility’s stroke policy/plan/guideline
       addressed all required items.
       Clinicians completed the National Institutes of
       Health stroke scale for each patient within the
       expected timeframe.
       Clinicians provided medication (tissue
       plasminogen activator) timely to halt the
       stroke and included all required steps, and
       tissue plasminogen activator was in stock or
       available within 15 minutes.
       Stroke guidelines were posted in all areas
       where patients may present with stroke
       symptoms.
       Clinicians screened patients for difficulty
       swallowing prior to oral intake of food or
       medicine.
       Clinicians provided printed stroke education to
       patients upon discharge.
       The facility provided training to staff involved
       in assessing and treating stroke patients.
       The facility collected and reported required
       data related to stroke care.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                 12
                                          CAP Review of the Washington DC VA Medical Center, Washington, DC


CLC Resident Independence and Dignity
The purpose of this review was to determine whether the facility provided CLC restorative
nursing services and complied with selected nutritional management and dining service
requirements to assist CLC residents in maintaining their optimal level of functioning,
independence, and dignity.f

We reviewed seven EHRs of residents (five residents receiving restorative nursing services and
two residents not receiving restorative nursing services but candidates for services). We also
observed 5 residents during 2 meal periods, reviewed 10 employee training/competency records
and other relevant documents, and conversed with key employees. The table below shows the
areas reviewed for this topic. Any items that did not apply to this facility are marked NA. The
facility generally met requirements. We made no recommendations.

NM                      Areas Reviewed                                       Findings
       The facility offered restorative nursing
       services.
       Facility staff completed and documented
       restorative nursing services, including active
       and passive range of motion, bed mobility,
       transfer, and walking activities, according to
       clinician orders and residents’ care plans.
       Resident progress towards restorative nursing
       goals was documented, and interventions
       were modified as needed to promote the
       resident’s accomplishment of goals.
       When restorative nursing services were care
       planned but were not provided or were
       discontinued, reasons were documented in
       the EHR.
       If residents were discharged from physical
       therapy, occupational therapy, or
       kinesiotherapy, there was hand-off
       communication between Physical Medicine
       and Rehabilitation Service and the CLC to
       ensure that restorative nursing services
       occurred.
       Training and competency assessment were
       completed for staff who performed restorative
       nursing services.
       The facility complied with any additional
       elements required by VHA or local policy.
            Areas Reviewed for Assistive Eating
                 Devices and Dining Service
       Care planned/ordered assistive eating devices
       were provided to residents at meal times.
       Required activities were performed during
       resident meal periods.




VA OIG Office of Healthcare Inspections                                                                 13
                                          CAP Review of the Washington DC VA Medical Center, Washington, DC


NM        Areas Reviewed for Assistive Eating                                 Findings
         Devices and Dining Service (continued)
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                 14
                                          CAP Review of the Washington DC VA Medical Center, Washington, DC


MRI Safety
The purpose of this review was to determine whether the facility ensured safety in MRI in
accordance with VHA policy requirements related to: (1) staff safety training, (2) patient
screening, and (3) risk assessment of the MRI environment.g

We reviewed relevant documents and the training records of 24 employees (16 Level 1 ancillary
staff and 8 designated Level 2 MRI personnel), and we conversed with key managers and
employees. We also reviewed the EHRs of 35 randomly selected patients who had an MRI
January 1–December 31, 2013. Additionally, we conducted physical inspections of two MRI
areas. The table below shows the areas reviewed for this topic. The areas marked as NM did
not meet applicable requirements and needed improvement. Any items that did not apply to
this facility are marked NA.

NM                     Areas Reviewed                                        Findings
 X     The facility completed an MRI risk                  Contrast reaction and fire emergency drills
       assessment, there were documented                    were not conducted in the MRI areas.
       procedures for handling emergencies in MRI,
       and emergency drills were conducted in the
       MRI area.
 X     Two patient safety screenings were conducted        Seventeen EHRs (49 percent) did not contain
       prior to MRI, and the secondary patient safety       initial patient safety screenings.
       screening form was signed by the patient,           Twenty EHRs (57 percent) did not contain
       family member, or caregiver and reviewed and         secondary patient safety screenings prior to
       signed by a Level 2 MRI personnel.                   MRI.
 X     Any MRI contraindications were noted on the         Three of the 15 secondary screening forms
       secondary patient safety screening form, and         did not contain documentation that all
       a Level 2 MRI personnel and/or radiologist           identified potential contraindications were
       addressed the contraindications and                  addressed prior to MRI.
       documented resolution prior to MRI.
 X     Level 1 ancillary staff and Level 2 MRI             None of the Level 1 ancillary staff received
       personnel were designated and received               level-specific annual MRI safety training.
       level-specific annual MRI safety training.          The facility did not designate any nursing
                                                            personnel as Level 1 ancillary staff even
                                                            though nursing staff assist in transporting and
                                                            monitoring critically ill patients during an MRI.
                                                           Two Level 2 MRI personnel did not receive
                                                            level-specific annual MRI safety training.
 X     Signage and barriers were in place to prevent       Zones III and IV were not adequately
       unauthorized or accidental access to Zones III       protected to prohibit unauthorized access.
       and IV.
       MRI technologists maintained visual contact
       with patients in the magnet room and two-way
       communication with patients inside the
       magnet, and the two-way communication
       device was regularly tested.
       Patients were offered MRI-safe hearing
       protection for use during the scan.




VA OIG Office of Healthcare Inspections                                                                     15
                                          CAP Review of the Washington DC VA Medical Center, Washington, DC


NM             Areas Reviewed (continued)                                    Findings
       The facility had only MRI-safe or compatible
       equipment in Zones III and IV, or the
       equipment was appropriately protected from
       the magnet.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

17. We recommended that processes be strengthened to ensure that contrast reaction and fire
emergency drills are conducted in magnetic resonance imaging and that compliance be
monitored.

18. We recommended that processes be strengthened to ensure that initial patient safety
screenings are conducted and that compliance be monitored.

19. We recommended that processes be strengthened to ensure that secondary patient safety
screenings are completed prior to magnetic resonance imaging and documented in the
electronic health record and that compliance be monitored.

20. We recommended that processes be strengthened to ensure that radiologists and/or
Level 2 magnetic resonance imaging personnel document resolution in the patients’ electronic
health records of all identified magnetic resonance imaging contraindications prior to the scan
and that compliance be monitored.

21. We recommended that all staff who may need to enter the magnetic resonance imaging
area be designated as Level 1 ancillary staff.

22. We recommended that processes be strengthened to ensure that all designated
Level 1 and 2 staff receive annual level-specific magnetic resonance imaging safety training and
that compliance be monitored.

23. We recommended that appropriate physical barriers be in place to restrict access to
magnetic resonance imaging Zones III and IV.




VA OIG Office of Healthcare Inspections                                                                 16
                                      CAP Review of the Washington DC VA Medical Center, Washington, DC
                                                                                           Appendix A


         Facility Profile (Washington, DC/688) FY 2014 through
                               June 20141
Type of Organization                                                     Tertiary
Complexity Level                                                         1b-High complexity
Affiliated/Non-Affiliated                                                Affiliated
Total Medical Care Budget in Millions                                    $462.9
Number of:
    Unique Patients                                                     57,051
    Outpatient Visits                                                   473,915
    Unique Employees2                                                   2,110
Type and Number of Operating Beds:
    Hospital                                                            175
    CLC                                                                 120
    MH                                                                  NA
Average Daily Census (May 2014):
    Hospital                                                            133
    CLC                                                                 99
    MH                                                                  NA
Number of Community Based Outpatient Clinics                             5
Location(s)/Station Number(s)                                            Fort Belvoir/688GA
                                                                         SE Washington/688GB
                                                                         Landover/Greenbelt/688GC
                                                                         Charlotte Hall/688GD
                                                                         Southern Prince George’s/688GE
VISN Number                                                              5




1
    All data is for FY 2014 through June 2014 except where noted. 

2
    Unique employees involved in direct medical care (cost center 8200) from most recent pay period. 



VA OIG Office of Healthcare Inspections                                                                  17
                                                                CAP Review of the Washington DC VA Medical Center, Washington, DC
                                                                                                                     Appendix B

                                    Strategic Analytics for Improvement and Learning (SAIL)3




3
    Metric definitions follow the graphs.


VA OIG Office of Healthcare Inspections                                                                                       18
                                                      CAP Review of the Washington DC VA Medical Center, Washington, DC



                                          Scatter Chart 





VA OIG Office of Healthcare Inspections                                                                             19
                                                                                                CAP Review of the Washington DC VA Medical Center, Washington, DC


                                                                         Metric Definitions
 Measure                       Definition                                                                          Desired direction
 ACSC Hospitalization          Ambulatory care sensitive condition hospitalizations (observed to expected ratio)   A lower value is better than a higher value
 Adjusted LOS                  Acute care risk adjusted length of stay                                             A lower value is better than a higher value
 Call Center Responsiveness    Average speed of call center responded to calls in seconds                          A lower value is better than a higher value
 Call Responsiveness           Call center speed in picking up calls and telephone abandonment rate                A lower value is better than a higher value
 Complications                 Acute care risk adjusted complication ratio                                         A lower value is better than a higher value
 Efficiency                    Overall efficiency measured as 1 divided by SFA (Stochastic Frontier Analysis)      A higher value is better than a lower value
 Employee Satisfaction         Overall satisfaction with job                                                       A higher value is better than a lower value
 HC Assoc Infections           Health care associated infections                                                   A lower value is better than a higher value
 HEDIS                         Outpatient performance measure (HEDIS)                                              A higher value is better than a lower value
 MH Status                     MH status (outpatient only, the Veterans RAND 12 Item Health Survey)                A higher value is better than a lower value
 MH Wait Time                  MH wait time for new and established patients (top 50 clinics)                      A higher value is better than a lower value
 Oryx                          Inpatient performance measure (ORYX)                                                A higher value is better than a lower value
 Physical Health Status        Physical health status (outpatient only, the Veterans RAND 12 item Health Survey)   A higher value is better than a lower value
 Primary Care Wait Time        Primary care wait time for new and established patients (top 50 clinics)            A higher value is better than a lower value
 PSI                           Patient safety indicator                                                            A lower value is better than a higher value
 Pt Satisfaction               Overall rating of hospital stay (inpatient only)                                    A higher value is better than a lower value
 RN Turnover                   Registered nurse turnover rate                                                      A lower value is better than a higher value
 RSMR-AMI                      30-day risk standardized mortality rate for acute myocardial infarction             A lower value is better than a higher value
 RSMR-CHF                      30-day risk standardized mortality rate for congestive heart failure                A lower value is better than a higher value
 RSMR-Pneumonia                30-day risk standardized mortality rate for pneumonia                               A lower value is better than a higher value
 RSRR-AMI                      30-day risk standardized readmission rate for acute myocardial infarction           A lower value is better than a higher value
 RSRR-CHF                      30-day risk standardized readmission rate for congestive heart failure              A lower value is better than a higher value
 RSRR-Pneumonia                30-day risk standardized readmission rate for pneumonia                             A lower value is better than a higher value
 SMR                           Acute care in-hospital standardized mortality ratio                                 A lower value is better than a higher value
 SMR30                         Acute care 30-day standardized mortality ratio                                      A lower value is better than a higher value
 Specialty Care Wait Time      Specialty care wait time for new and established patients (top 50 clinics)          A higher value is better than a lower value




VA OIG Office of Healthcare Inspections                                                                                                                          20
                                 CAP Review of the Washington DC VA Medical Center, Washington, DC
                                                                                      Appendix C
                               VISN Director Comments



               Department of
               Veterans Affairs                                    Memorandum


           Date:       July 1, 2014

          From:        Director, VA Capitol Health Care Network (10N5)

       Subject: 	      CAP Review of the Washington DC VA Medical Center,
                       Washington, DC

             To:       Director, Bay Pines Office of Healthcare Inspections (54SP)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       1. I have reviewed the comments provided by the Medical Center
       Director, DC VA Medical Center and concur with the responses and
       actions to the recommendations outlined in the report.

       2.    Should you require any additional information, please contact
       Jeffrey Lee, Quality Management Officer, VA Capitol Health Care
       Network, VISN 5 at 410-691-7816.


              (original signed by:)
       Fernando O. Rivera, FACHE




VA OIG Office of Healthcare Inspections                                                        21
                                  CAP Review of the Washington DC VA Medical Center, Washington, DC
                                                                                       Appendix D
                             Facility Director Comments



               Department of
               Veterans Affairs                                     Memorandum


           Date:        July 1, 2014

          From:         Director, Washington DC VA Medical Center (688/00)

       Subject:         CAP Review of the Washington DC VA Medical Center,
                        Washington, DC

             To:        Director, VA Capitol Health Care Network (10N5)

       1. Thank you for the opportunity to review the draft report and I concur
       with the OIG recommendations.

       2. Our corrective actions have been established with planned completion
       dates as detailed in the attached report.

       3. If you have any questions please contact Geraldlene Adams, BSN,
       MBA, Director of Quality Management at 202-745-8564.


          (original signed by:)
       Brian A. Hawkins, MHA
       Medical Center Director




VA OIG Office of Healthcare Inspections                                                         22
                               CAP Review of the Washington DC VA Medical Center, Washington, DC


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that the Chief of Staff reconsider Peer Review
Committee membership to ensure that sufficient experienced senior physicians are
regular members.

Concur

Target date for completion: June 30, 2014

Facility response: VHA Directive 2010-025, attachment D section 1 which outlines the
required composition and qualifications of the Peer Review Committee (PRC), does not
specify which physicians must be members of the PRC. The DC VAMC PRC is
comprised of a multi-disciplinary team of experienced senior physicians from Medicine
Service, Surgery Service, Behavioral Health, Nursing, and Radiology along with Quality
Management at each meeting. When appropriate, ad-hoc members are invited and
attend and vote on the level recommendations.

The reviewer suggested that the Chief of the Emergency Department (ED) and Primary
Care (PC) be added as regular members to the committee. Both of these sections fall
under Medicine Service. This recommendation was discussed in the June 17, 2014,
PRC meeting and it was determined that DC VAMC would continue to request ED and
PC representation on an ad-hoc basis, because patient appointment scheduling for
Chiefs of PC and ED limits their availability. The Risk Manager will extend the invitation
based on the appropriateness of the cases being reviewed.

Recommendation 2. We recommended that processes be strengthened to ensure that
actions from peer reviews are consistently completed and reported to the Peer Review
Committee.

Concur

Target date for completion: September 30, 2014

Facility response: The Risk Manager will send out reminders to Service Chiefs for
completion of actions with due dates. The Chief of Staff will reinforce all open actions in
the weekly Bed Service Chief Meeting and report compliance in the Medical Executive
Committee.




VA OIG Office of Healthcare Inspections                                                      23
                               CAP Review of the Washington DC VA Medical Center, Washington, DC


Recommendation 3. We recommended that processes be strengthened to ensure that
Focused Professional Practice Evaluation results for newly hired licensed independent
practitioners are consistently reported to the Medical Executive Committee.

Concur

Target date for completion: September 30, 2014

Facility response: FPPE reporting is now completed at the beginning of each MEC
meeting. The tracking and scheduling of the required reports is conducted by the Chief
of Staff office. Compliance will be monitored by the Quality Council monthly for
4 consecutive months of 100 percent compliance beginning June, 2014.

Recommendation 4. We recommended that a local observation bed policy be
implemented and that data about observation bed use be collected and analyzed.

Concur

Target date for completion: September 30, 2014

Facility response: The draft observation policy was available at the time of the review
and is on the Medical Executive Committee’s July 8, 2014 agenda for approval.
Monitoring of the observation patients had begun May 1, 2014, and is currently at
98 percent reviewed.

Recommendation 5. We recommended that processes be strengthened to ensure that
Code Blue Committee code reviews include screening for clinical issues prior to the
code that may have contributed to the occurrence of the code.

Concur

Target date for completion: September 30, 2014

Facility response: The Code Blue monitoring tool was revised to include documentation
of screening for preexisting clinical issues prior to the code. Additionally, all code blue
reviewers were appraised of the facility adaption of OIG recommendations to include
Rapid Response calls (if any) and review of the patient’s condition at least 48 hours
prior to the code event as newly added steps to DC VAMC’s current process.

Recommendation 6. We recommended that the Surgical Work Group meet monthly.

Concur

Target date for completion: September 30, 2014

Facility response: At the Facility Surgical Work Group meeting on June 23, 2014, the
meeting schedule for FY14-15 was discussed and revised. To improve compliance with
attendance, future meeting dates have been scheduled to occur on the Monday of the



VA OIG Office of Healthcare Inspections                                                      24
                               CAP Review of the Washington DC VA Medical Center, Washington, DC


third week of each month. The need for maximum attendance by all committee
members (or designated representative) was also discussed and encouraged.

Recommendation 7. We recommended that processes be strengthened to ensure that
electronic health record quality data is analyzed at least quarterly and that the review of
electronic health record quality includes most services.

Concur

Target date for completion: September 30, 2014

Facility response: The MRC committee will report quarterly the quality reviews
conducted by each service representative to the MEC. A schedule of service reports for
the year will be developed and issued at the July 2, 2014 meeting.

Recommendation 8. We recommended that the quality control policy for scanning be
revised to include the handling of external source documents.

Concur

Target date for completion: July 30, 2014

Facility response: The Chief of Health Information Management Service (HIMS) has
made the necessary changes to the scanning policy and will bring the revised policy to
the July 2, 2104 MRC meeting. Once approved at the MRC, it will go to Medical
Executive Committee. A quality audit will be conducted on all scanned documents and
reported to the MRC monthly, to begin on July 1, 2014.

Recommendation 9. We recommended that processes be strengthened to ensure that
the Transfusion Committee members from Medicine and Anesthesia Services
consistently attend meetings.

Concur

Target date for completion: September 30, 2014

Facility response: The Transfusion Committee membership is comprised of two
physicians from Medicine Service: one from general Medicine and Hematology. There
is consistent attendance for Medicine because one is always in attendance, if not both.
Anesthesia Service has been under a critical shortage, and has been excused by the
committee chairperson until positions are filled by July 30, 2014. Once the positions are
filled, Anesthesia Service will be required to consistently attend Transfusion Committee
meetings.




VA OIG Office of Healthcare Inspections                                                      25
                               CAP Review of the Washington DC VA Medical Center, Washington, DC


Recommendation 10. We recommended that processes be strengthened to ensure
that Environment of Care Committee and Executive Committee of the Governing Body
minutes reflect sufficient discussion of deficiencies, corrective actions taken, and
tracking of actions to closure.

Concur

Target date for completion: September 30, 2014

Facility response: The EOC Committee Chair will ensure that the deficiencies are
discussed to include corrective actions and preventative measures. The EOC
Committee Chair will ensure that sufficient discussion for each identified deficiency is
reflected in the minutes, to include tracking and trending until closure, prior to
accepting/signing official monthly minutes. The same detail will be also be followed
monthly by the Executive Committee of the Governing Body and Chair.

Recommendation 11. We recommended that processes be strengthened to ensure
that public restrooms are clean and that compliance be monitored.

Concur

Target date for completion: September 30, 2014

Facility response: The facilities’ public restrooms are currently in different stages of
renovation. The opening of additional public restrooms for the first floor occurred on
June 16, 2014. The Atrium restroom renovation will begin on July 15, 2014. To meet
the demands of the restroom usage, the environmental management systems (EMS)
staff will increase cleaning rounds to hourly with a checklist for supervisor review.
Audits will be reported to the EOC committee on a monthly basis for compliance until
end of fiscal year 2014.

Recommendation 12. We recommended that processes be strengthened to ensure
that the surveillance monitoring system on the locked mental health unit is on at all
times and that compliance be monitored.

Concur

Target date for completion: August 30, 2014

Facility response: A new surveillance system is being installed in the locked mental
health unit with a target completion date of August 2014. During the OIG survey, an
older monitor was identified to have a power malfunction that resulted in automatic
power off. The equipment has since been evaluated and a permanent replacement will
be obtained as part of the new surveillance system. The identified faulty equipment has
been temporarily replaced by a fully operational desk top monitor to ensure continued
surveillance by staff and police services.




VA OIG Office of Healthcare Inspections                                                      26
                               CAP Review of the Washington DC VA Medical Center, Washington, DC


Recommendation 13. We recommended that processes be strengthened to ensure
that the electronic patient monitoring system on the Community Living Center West unit
is inspected and checks documented and that compliance be monitored.

Concur

Target date for completion: September 30, 2014

Facility response: Community Living Center nursing leadership staff has identified the
inspection of the electronic patient monitoring system followed by documentation of
checks as a priority issue. Review of the inspection process and documentation
requirements was performed by the Nurse Managers during staff meetings and face-to­
face small group discussion in June 2014. Compliance with daily documentation of shift
inspections will be completed by the Nurse Leader. Overall compliance will be
monitored by the CLC Nursing Supervisor via a monthly review of the checklist and
reported to the CLC Administration Committee.

Recommendation 14. We recommended that processes be strengthened to ensure
that all medications in the emergency department, on the dialysis unit, on the
post-anesthesia care unit, and in the eye clinic are secured and that compliance be
monitored.

Concur

Target date for completion: September 30, 2014

Facility response: Monitoring of medication security has been increased to include the
Nurse Managers inspecting the recommended areas on a daily basis. Additionally, QM,
Pharmacy and Patient Safety staff will also perform random audits in each section for a
total of 40 observations per month.

Recommendation 15. We recommended that processes be strengthened to ensure
that the medication list provided to the patient/caregiver at discharge is reconciled with
the dosage and frequency ordered and that compliance be monitored.

Concur

Target date for completion: September 30, 2014

Facility response: Clinical Pharmacy Specialists assigned to the inpatient provider
teams will serve as a resource to the providers and reinforce the requirement to ensure
medication reconciliation has occurred prior to patient discharge. Additionally, a
Process Action Team composed of representatives from Clinical Informatics, Pharmacy,
and Medical Staff has been formed with the task to review the medication reconciliation
and ordering process involved at patient discharge and to identify any system
breakdowns and/or deviation(s) in practice. This action item will be tracked through the
monthly Medical Records Committee meetings. Compliance with the current process
and/or any implemented changes will be monitored via records audit (30 per month)


VA OIG Office of Healthcare Inspections                                                      27
                               CAP Review of the Washington DC VA Medical Center, Washington, DC


with results trended and reported to the Medical Records Committee. The target date
for completion is September 30, 2014 with follow-up including monthly records audits for
six months and then intermittent monitoring.

Recommendation 16. We recommended that processes be strengthened to ensure
that progress notes in the electronic health record are individualized and accurate.

Concur

Target date for completion: September 30, 2014

Facility response: The incorrect information found in the electronic medical record
reviewed was related to the text box being inappropriately checked that instructions
were given to the patient when they were not capable of understanding discharge
instructions. To prevent this error, Nursing Informatics added a required check box that
accurately reflects who was provided discharge instructions and the level of
understanding. This function was added on June 24, 2014 and the Nursing PI
committee will monitor 50 discharge records per month for compliance for
Q4, FY14. Education of the staff will be completed by June 30, 2014 on the changes
and findings.

Recommendation 17. We recommended that processes be strengthened to ensure
that contrast reaction and fire emergency drills are conducted in magnetic resonance
imaging and that compliance be monitored.

Concur

Target date for completion: June 24, 2014

Facility response: The Fire emergency drill was completed in MRI on
June 24, 2014 and contrast reaction drill was completed June 25, 2014. Subsequent
drills will occur on an annual basis in accordance with DC VAMC policy.

Recommendation 18. We recommended that processes be strengthened to ensure
that initial patient safety screenings are conducted and that compliance be monitored.

Concur

Target date for completion: September 30, 2014

Facility response: A force function has been added in CPRS to prevent placement of an
MRI order by the physician until the initial safety screening has been completed. This
function was added on June 24, 2014. Follow-up on monitoring for compliance to
identify overrides and any other issues will be completed over the next 30 days by the
Department of Radiology’s Administrator and Technician Supervisor.




VA OIG Office of Healthcare Inspections                                                      28
                               CAP Review of the Washington DC VA Medical Center, Washington, DC


Recommendation 19. We recommended that processes be strengthened to ensure
that secondary patient safety screenings are completed prior to magnetic resonance
imaging and documented in the electronic health record and that compliance be
monitored.

Concur

Target date for completion: September 30, 2014

Facility response: The MRI staff collaborated with Informatics staff to change the
secondary screening template to a required document with no overrides. The MRI staff
and physicians have been educated on the screening use and functions and
compliance will be monitored by patient record review. Review will be 10 percent of the
MRIs performed in a month compliance rate and reported to patient safety committee
for 3 months.


Recommendation 20. We recommended that processes be strengthened to ensure
that radiologists and/or Level 2 magnetic resonance imaging personnel document
resolution in the patients’ electronic health records of all identified magnetic resonance
imaging contraindications prior to the scan and that compliance be monitored.

Concur

Target date for completion: September 30, 2014

Facility response: The Patient Safety Screening Form was modified to allow for
documentation of review of all contraindications identified prior to MRI procedure. All
MRI Technologist and Radiologists have been informed and educated about this
revision. Older versions of the form have been replaced with the newer version for
immediate use. Compliance with this process improvement issue will be measured
using the records review method and reported and discussed at the MRI Safety
Committee meeting.

Recommendation 21. We recommended that all staff who may need to enter the
magnetic resonance imaging area be designated as Level 1 ancillary staff.

Concur

Target date for completion: July 30, 2014

Facility response: After an assessment of staff at all levels who may need to enter the
MRI outer area, the following staff will be designated as Level 1 Ancillary staff: all
Respiratory Therapists, Anesthesia Staff, and RNs assigned to the Emergency
Department, Medical ICU, and Surgical ICU. An MRI Safety training package has been
uploaded into the Talent Management System and assigned to all identified clinical staff
with a target training completion date of July 30, 2014. The goal of this training is to
educate all clinical staff on MRI safety.


VA OIG Office of Healthcare Inspections                                                      29
                               CAP Review of the Washington DC VA Medical Center, Washington, DC


Recommendation 22. We recommended that processes be strengthened to ensure
that all designated Level 1 and Level 2 staff receive annual level-specific magnetic
resonance imaging safety training and that compliance be monitored.

Concur

Target date for completion: September 30, 2014

Facility response: Completion of the annual Level 1 MRI Safety Training will be
accomplished by the addition of the Level 1 TMS supported training to the annual
training requirement for identified staff (target completion date is (July 30, 2014).
Completion of Level 2 MRI Safety Training for MRI staff was accomplished in a timely
manner but not verified due lack of documented participation. A correction was
achieved via re-training the staff of level 2 training on June 16, 2014, with the
attendance documented using a sign-in sheet.

Recommendation 23. We recommended that appropriate physical barriers be in place
to restrict access to magnetic resonance imaging Zones III and IV.

Concur

Target date for completion: July 30, 2014

Facility response: The purchase of badge access locks to the MRI Zone areas was
approved and they are currently being put in place. The pre-wiring work is completed
with the installation of the hardware to be completed by July 30, 2014. The issuance of
badges to staff and training will follow final installation and testing.




VA OIG Office of Healthcare Inspections                                                      30
                               CAP Review of the Washington DC VA Medical Center, Washington, DC
                                                                                     Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Alice Morales-Rullan, RN, MSN, Team Leader
Contributors            Darlene Conde-Nadeau, MSN, ARNP
                        David Griffith, RN, BS
                        Karen McGoff-Yost, MSW, LCSW
                        Lauren Olstad, MSW, LCSW
                        Carol Torczon, MSN, ACNP
                        Chris Holcombe, Resident Agent, DC Office of Investigations
Other                   Elizabeth Bullock
Contributors            Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Jeff Joppie, BS
                        Nathan McClafferty, MS
                        Patrick Smith, M. Stat
                        Yurong Tan, PhD
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                      31
                               CAP Review of the Washington DC VA Medical Center, Washington, DC
                                                                                     Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Director, VA Capitol Health Care Network (10N5)
Director, Washington DC VA Medical Center (688/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. House of Representatives: Eleanor Holmes Norton


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                      32
                                   CAP Review of the Washington DC VA Medical Center, Washington, DC
                                                                                        Appendix G

                                                Endnotes

a
  References used for this topic included:

  VHA Directive 2009-043, Quality Management System, September 11, 2009. 

  VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011. 

  VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010. 

  VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010. 

  VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation 

   Beds, March 4, 2010.
 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
 VHA Handbook 1100.19, Credentialing and Privileging, October 15, 2012.
 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
   Cardiopulmonary Resuscitation Committees, October 17, 2008.
 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
 VHA Directive 6300, Records Management, July 10, 2012.
 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
b
  References used for this topic included:
 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
 VHA Handbook 1121.01, VHA Eye Care, March 10, 2011.
 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04, January 17, 2013.
 “Adenovirus-Associated Epidemic Keratoconjunctivitis Outbreaks –Four States, 2008–2010,” Centers for Disease
   Control and Prevention Morbidity and Mortality Weekly Report, August 16, 2013.
	 Various requirements of The Joint Commission, the Occupational Safety and Health Administration, the
   American National Standards Institute/Advancing Safety in Medical Technology, the Centers for Disease Control
   and Prevention, the International Association of Healthcare Central Service Materiel Management ,the National
   Fire Protection Association, the Health Insurance Portability and Accountability Act, Underwriters Laboratories.
c
  References used for this topic included:

 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.

 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006. 

 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.

 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012. 

 Manufacturer’s instructions for Cipro® and Levaquin®.

 Various requirements of The Joint Commission.

d
  References used for this topic included:

 VHA Handbook 1120.04, Veterans Health Education and Information Core Program Requirements, 

   July 29, 2009.
 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
 The Joint Commission, Comprehensive Accreditation Manual for Hospitals, July 2013.
e
  The references used for this topic were:
 VHA Directive 2011-038, Treatment of Acute Ischemic Stroke, November 2, 2011.
 Guidelines for the Early Management of Patients with Acute Ischemic Stroke (AHA/ASA Guidelines),
   January 31, 2013.
f
  References used for this topic included:
 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008.
 VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
   (MDS), January 4, 2013.
 Centers for Medicare and Medicaid Services, Long-Term Care Facility Resident Assessment Instrument User’s
   Manual, Version 3.0, May 2013.
 VHA Manual M-2, Part VIII, Chapter 1, Physical Medicine and Rehabilitation Service, October 7, 1992.
 Various requirements of The Joint Commission.




VA OIG Office of Healthcare Inspections                                                                        33
                                       CAP Review of the Washington DC VA Medical Center, Washington, DC



g
    References used for this topic included:
	 VHA Handbook 1105.05, Magnetic Resonance Imaging Safety, July 19, 2012.
	 Emanuel Kanal, MD, et al., “ACR Guidance Document on MR Safe Practices: 2013,” Journal of Magnetic
    Resonance Imaging, Vol. 37, No. 3, January 23, 2013, pp. 501–530.
	 The Joint Commission, “Preventing accidents and injuries in the MRI suite,” Sentinel Event Alert, Issue 38,
    February 14, 2008.
	 VA National Center for Patient Safety, “MR Hazard Summary,”
    http://www.patientsafety.va.gov/professionals/hazards/mr.asp.
	 VA Radiology, “Online Guide,” http://vaww1.va.gov/RADIOLOGY/OnLine_Guide.asp, updated
    October 4, 2011.




VA OIG Office of Healthcare Inspections                                                                          34
